LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

May 29, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1257: MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA,
DEMOCRATIC NATIONAL COMMITTEE, ET AL.

ET AL. V.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Judicial Watch,
Inc. and Allied Educational Foundation , on May 29, 2020, I caused service to be made
pursuant to Rule 29 on the following counsel for the Petitioners and Respondents.
PETITIONERS:
Oramel Horace Skinner
Arizona Attorney General's Office
2005 N. Central Ave.
Phoenix, AZ 85004
602-542-8327
o.h.skinner@azag.gov

RESPONDENTS:
Jessica Ring Amunson
Jenner & Block LLP
1099 New York Avenue NW
Suite 900
Washington, DC 20001
202-639-6023
JAmunson@jenner.com

This service was effected by depositing one copy of the Brief of Amici Curiae Judicial
Watch, Inc. and Allied Educational Foundation in an official “first class mail”
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.

Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 29th day of May 2020.

